In the Supreme Court of the United States
Nicole Johnson-Gellineau,
Petitioner,
v.
Stiene & Associates, P.C.;
Christopher Virga, Esq.; Ronni Ginsberg, Esq.;
JPMorgan Chase Bank, National Association; Wells
Fargo Bank National Association,
As Trustee For Carrington Mortgage Loan Trust,
Series 2007-FREl, Asset-Backed Pass-Through
Certificates,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme court Rule 33.1(h), I certify that the
petition for a writ of certiorari contains 7,137 words, excluding the
parts of the petition that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on May 17, 2021.

I

Nicole Johmsoh-Gellineau, Petitioner

Received
MAY 2 o 2021

